                  Peace Corps
                  Office of Inspector General




Peace Corps office in Kampala, Uganda                Chimpanzee Sanctuary on
                                                     Ngamba Island, Uganda




                                    Flag of Uganda




                      Follow-up Audit Report:
                       Peace Corps/Uganda
                                                                   March 2009
   Final Audit Report:
   Peace Corps/Uganda
      IG-09-07-FUA




____________________________________
          Gerald P. Montoya
Assistant Inspector General for Audits




            March 2009
                                                             Table of Contents

Introduction......................................................................................................................... 1

Summary of Findings.......................................................................................................... 1

Follow-up Audit Results ..................................................................................................... 2
Accounting for Obligations and Liquidations ................................................................................................ 2

Billings and Collections ................................................................................................................................. 4

Imprest Fund................................................................................................................................................... 5

Special Funding.............................................................................................................................................. 8

Property: Furniture and Equipment ............................................................................................................... 9

Vehicle Management.................................................................................................................................... 11

Contracts in General ..................................................................................................................................... 12

Personnel ...................................................................................................................................................... 13


Objective, Scope, and Methodology................................................................................. 14

Audit Completion and OIG Contact ................................................................................. 15
                                 INTRODUCTION
The Office of Inspector General conducted an audit of Peace Corps/Uganda March 1 –
21, 2005 and issued report IG-05-22-A on September 21, 2005. Our report contained 56
recommendations and management concurred with all recommendations. We conducted
a follow-up audit September 18 – 22, 2006 to verify the status of all recommendations
and issued our follow-up report IG-07-03-FUA on December 14, 2006. Upon issuance of
the follow-up report, 37 recommendations were closed and 19 recommendations
remained open. The 19 open recommendations were subsequently closed by the chief
compliance officer.

As part of our continuing oversight responsibilities, we conducted a follow-up audit to
verify the status of the 19 recommendations that were open at the time report IG-07-03-
FUA was issued. The fieldwork of this follow-up audit was conducted January 26 –
February 6, 2009.

Appendix A provides a description of our follow-up audit objective, scope, and
methodology.

Peace Corps began operations in Uganda in 1964. The agency terminated the program in
1973 during the civil unrest period of the presidency of Idi Amin and returned to Uganda
in 1991. The program was suspended in 1999 due to regional unrest and was restarted in
2001. At the time of our visit, 130 Volunteers were working in three program areas:
education, economic development and community health, with funding support from the
President’s Emergency Plan for AIDS Relief.



                          SUMMARY OF FINDINGS
During our 2009 follow-up audit, we verified that appropriate action had been taken on
15 of the 19 audit recommendations. We determined that recommendation numbers 5,
11, 17, and 38 required additional action. Subsequent to our visit, the post provided us
with documentation showing that it had taken appropriate action on recommendation
numbers 5 and 17, and we have closed them. Recommendation numbers 11 and 38
remain open pending the completion of the required actions and submission to the chief
compliance officer of documentation supporting the actions taken.

A summary of the status of the audit recommendations as the result of our follow-up
audit is shown in the table below, followed by the results of our verifications of each
recommendation.




Follow-up Audit Report: Peace Corps/Uganda                                                 1
    Status of Audit Recommendations as the Result of our Follow-up Audit
                                             Number of                 Open
                       Number of
   Audit Area                             Recommendations         Recommendation
                    Recommendations
                                              Closed                  Number
 Accounting for
 Obligations and            2                     2
  Liquidations
   Billings and
                            2                     1                       11
    Collection
  Imprest Fund              6                     6
 Special Funding            1                     1
    Property:
  Furniture and             4                     4
   Equipment
    Vehicle
                            2                     1                       38
  Management
   Contracts in
                            1                     1
    General
    Personnel               1                     1
      Total                 19                    17                      2




                      FOLLOW-UP AUDIT RESULTS
Each item below includes the recommendation, management’s response, and the results
of our verifications. The recommendation numbers in this follow-up report correspond
with those used in audit report IG-05-22-A issued in September 2005.

ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS

3. That the Office of Financial Services work with the post to clear outstanding travel
   advances.

Management’s Response: Concur. Post is presently working with the Office of
Financial Services to clear all prior fiscal years travel advances by September 30, 2005.

OCFO’s Response: Concur. The Office of the Chief Financial Officer (OCFO) has
been working closely with post to clear all outstanding travel advances and to ensure
travelers are submitting their travel vouchers within 10 days of completion of travel. As
of August 23, 2005 post advised OCFO that all outstanding FY 2005 vouchers for which



Follow-up Audit Report: Peace Corps/Uganda                                                  2
travel was completed on or before August 13th has been forwarded to OCFO for
processing.

All outstanding prior year travel advances that could be cleared by OCFO without any
additional information from the post have been cleared. The statuses of those advances
that remain outstanding are indicated below:

   Category (#)               Total Amt              Status
Travel Voucher Due            $1015.14       Post will advise OCFO of their
From Traveler (6)                            collection efforts by August 31, 2005
                                             and OCFO will take appropriate
                                             action, if required

OCFO Researching (8)          $ 189.43       Processing errors that require FORPost
                                             assistance; should be resolved by 9/15/05


2006 OIG Verification: Recommendation open. We verified that one travel advance
remained outstanding. The financial administrator had researched documents during the
follow-up audit, in conjunction with headquarters, to resolve the outstanding advance.
All other travel advances had been cleared.

2009 OIG Verification: Recommendation closed. We verified by review of the
administrative records that the post’s old outstanding travel advances had been cleared.
One new travel advance, initiated by headquarters in fiscal year 2008, was awaiting
clearance and was being followed up.



5. That the post require staff to submit travel vouchers within 10 days and submit
   these vouchers to headquarters within five working days.

Management’s Response: Concur. Post is enforcing its current standard that requires
staff to submit travel vouchers to the Financial Specialist within five working days. The
Financial Specialist will submit vouchers to Peace Corps Headquarters within five days
of receipt. Effective August 30, 2005.


2006 OIG Verification: Recommendation open. A sample of nine travel vouchers
submitted during 2006 showed that only three staff members had submitted their travel
vouchers within 10 working days. As a result, this recommendation remains open.

2009 OIG Verification: Recommendation open; subsequently closed as the result of
additional action taken by the post. Peace Corps Manual (PCM) section 812.18.10
requires travel vouchers to be “completed and submitted within five working days after
completion of travel.” To review compliance with the policy, we selected eight



Follow-up Audit Report: Peace Corps/Uganda                                                  3
international travel vouchers for post staff travel completed in fiscal years 2008 and 2009.
We found that three of the eight travel vouchers were prepared timely. The workdays
between the date the travel was completed and the date the travel voucher was signed by
the traveler ranged from one to 33 days. The administrative officer told us that he
recognized the problem and that he had made a concerted effort to achieve compliance,
as evidenced by the fact that the three vouchers submitted timely were all in fiscal year
2009. He further told us that he would personally monitor travel voucher timeliness on
an ongoing basis.

Subsequent to our visit, the administrative officer forwarded to us three international
travel vouchers prepared and submitted in February 2009 within five workdays of the
completion of travel. Accordingly, we are closing this recommendation.


BILLINGS AND COLLECTIONS

11. That the post notify the Office of Financial Services of all outstanding debts over
    90 days old.

Management’s Response: Concur. Once Recommendation #10 above has been
completed, the AO will analyze data to determine all outstanding debts over 90 days old
and will report to OFS by September 30, 2005.


2006 OIG Verification: Recommendation open. We verified that the post had taken no
action.

2009 OIG Verification: Recommendation open. We verified by review of the post’s
bills of collections log that, at the time of our visit, there were no outstanding debts over
90 days old.

However, we found that bills of collection were sometimes prepared, and collections
made, numerous months after the receipt of the related phone bills. The post’s bills of
collection log indicated a time lag of up to a year between the month the phone bill was
issued and the date that the bill of collection was prepared and settled. The deficiency
resulted from significant delays by some staff in identifying their personal calls and by
inadequate follow up and billing timeliness by the billings officer. The administrative
officer told us that he intends to establish a fixed time period for staff to review their
phone bills and identify personal calls, after which the entire amount would be considered
personal and billed to the staff member. He believes that this approach would encourage
the staff to review their bills promptly. Further, the country director told us that he is
considering setting a threshold for monthly personal phone usage, under which staff
members would not be billed, in line with the guidance in Overseas Financial
Management Handbook (OFMH) section 7.1.1.




Follow-up Audit Report: Peace Corps/Uganda                                                      4
This recommendation will remain open pending submission to the chief compliance
officer of several months of bills of collection logs evidencing prompt billing and
collection for personal phone calls made by staff.



12. That the post follow up and collect all outstanding debts.

Management’s Response: Concur. Post is committed to resolving all outstanding debts
owed to Peace Corps/Uganda by staff members and is expected to be completed by
September 30, 2005.


2006 OIG Verification: Recommendation open. We verified that the post had made
little or no attempt to collect the outstanding debts. All outstanding debts were for
personal use of the post’s telephones. Although there was an attempt to collect some of
the outstanding debts shortly before the auditor arrived, many debts remained
outstanding. The debts presently date back to 2002.

2009 OIG Verification: Recommendation closed. We obtained and reviewed the
post’s bills of collections log. We found that in January 2009, the post made a concerted
effort to collect outstanding amounts due from staff members. At the time of our follow-
up audit, five billings for personal phone usage, all in January 2009, showed as
outstanding on the bills of collections log.


IMPREST FUND

14. That the post report any shortage reflected on line 28 of Form 365 (Imprest Fund
    Cash Reconciliation) to the OIG when the loss is greater than $10.00.

Management’s Response: Concur. Post is currently working closely with the Cashier
Liaison and FOR Post staff to determine actual amounts to be reflected on Form 99 and
Form 365. When final reconciliation is made and zero balances set, Post will first report
any shortage or overage to the Cashier Liaison and FOR Post staff to determine whether
error is due to data entry or for some other reason. Should human error be discovered,
Post will report to the OIG. Effective August 30, 2005.


2006 OIG Verification: Recommendation open. We verified that the imprest fund was
out of balance when the cashier received it. The imprest fund continued to be out of
balance and fluctuated from being over its approved level to being under its approved
level. We did not determine the cause.

No report was made to the OIG. All losses should be reported to the OIG by the country
director regardless of cause.


Follow-up Audit Report: Peace Corps/Uganda                                                  5
2009 OIG Verification: Recommendation closed. The shortage mentioned in the 2005
audit report was cleared with settlement by the previous administrative officer and the
previous cashier. We reviewed supporting documentation on file with the headquarters’
overseas cashier liaison. Further, we observed an imprest fund verification performed by
the administrative officer on January 28, 2009. The cash reconciliation showed a
temporary difference of 40,000 Uganda shillings (U.S. dollar equivalent of $21),
resulting from an adjusting entry made by the post the previous day and not yet reflected
in headquarters’ records. The subsequent day’s cash reconciliation showed the
elimination of the temporary difference.

PCM section 760.16.1 states: “The country director is specifically responsible for
conducting the [imprest fund] verification at least once per quarter.” However, we found,
by review of the cash reconciliations on file with the cashier, that the previous country
director, who departed the post in January 2009, last performed an imprest fund
verification on August 21, 2008, and failed to perform one in the first quarter of fiscal
year 2009. The new country director, who arrived in mid-January 2009, confirmed to us
that he is aware of the quarterly verification requirement. He conducted an imprest fund
verification on February 10, 2009; we obtained a copy of the cash reconciliation’s
summary page with his signature thereon. Accordingly, we are closing this
recommendation.



15. That the post work with OPBF/F to make correcting entries to bring line 28 of
    Form 365 into balance.

Management’s Response: Concur. Post is currently working closely with the Cashier
Liaison and FOR Post staff to correct entries to bring line 28 of Form 365 into balance.
Mandated balance date is September 30, 2005.


2006 OIG Verification: Implementation open. We verified that the post was working
with the Office of the Chief Financial Officer to find and correct errors that have affected
the 365 balance, but line 28 is still out of balance.

2009 OIG Verification: Recommendation closed. See our comment for
recommendation number 14, paragraph 1.



17. That the administrative officer not act as the alternate cashier until he passes the
    examination and receives official designation.

Management’s Response: Concur. The AO will not act as alternate cashier until
passing examination and receiving official designation.




Follow-up Audit Report: Peace Corps/Uganda                                                 6
2006 OIG Verification: Recommendation open. We were unable to verify whether the
administrative officer had passed the required examination to serve as an alternate
cashier. The administrative officer stated that he was still waiting to receive official
designation; however, he was acting as cashier.

2009 OIG Verification: Recommendation open; subsequently closed as the result of
additional action taken by the post. We obtained from the administrative files the letter
of designation for the alternate cashier issued by the Financial Service Center in
Charleston (FSC). We reviewed the letter and noted that the administrative assistant was
designated temporary alternate cashier effective June 8, 2008 with the requirement to
successfully complete the cashier exam within the 180 day period. This was not
achieved, and the administrative assistant received from the FSC an extension until
March 10, 2009 to complete the cashier exam. We reviewed the FSC’s extension on file
with the principal cashier.

Subsequent to our visit, we received notification from the post that the alternate cashier
passed the cashier exam. We obtained and reviewed a copy of the cable dated March 2,
2009, from the FSC confirming the completion of the cashier exam and the change in
designation from temporary to permanent alternate cashier. Accordingly, we have closed
this recommendation.



19. That the post obtain two cash boxes with locks for LCU and USD funds of
    sufficient size to hold the funds.

Management’s Response: Concur. Boxes and locks for local currency and USD funds
purchased September 2, 2005.


2006 OIG On-site Verification: Recommendation open. We verified that the post has
not obtained cash boxes with sufficient capacity to protect local and US currency. The
cash box used for local currency (LCU) was not large enough to hold the local currency
coins. As a result, LCU coins were held in cardboard boxes or plastic sacs in the
cashier’s safe. Additionally, the box used for USD currency was inadequate because it
was made of plastic materials that could be easily broken into.

2009 OIG Verification: Recommendation closed. We verified, by inspection of the
safe maintained in the cashier’s cage, that the post had obtained and was using separate
cash boxes with locks for local currency and U.S. dollar funds.



21. That the post request permission from headquarters to advance the training
    manager sufficient funds to maintain the operations of the training sites.




Follow-up Audit Report: Peace Corps/Uganda                                                 7
Management’s Response: Concur. Post will request permission from PC/HQ to
advance the TM sufficient funds to maintain operations of the training site. Post plans to
advance the TM sufficient funds to operate during PST; TM will provide biweekly
receipts to Cashier so that he can clear advanced funds. Permission will be requested by
February 1, 2006 when amount to be advanced will have been determined.


2006 OIG Verification: Recommendation open. We verified that the post reduced that
amount that the cashier holds to less than $1,500. However, during our follow-up audit,
the cashier still carried money to pay the larger expenses so that the training manager will
not have to hold large sums. No permission was requested to have the training manager
hold funds.

2009 OIG Verification: Recommendation closed. Headquarters approval is not a
current requirement for the advance of funds. As noted in recommendation number 22,
the staff member’s statement of work in the PSC’s contract file, which we reviewed,
reflected her responsibility as an occasional money handler. Accordingly, we have closed
this recommendation.



22. That the post include in the training manager’s statement of work the amount of
    funds she will be advanced for the training center.

Management’s Response: Concur. TM’s contract will be amended by February 1,
2006 when amount to be advanced will have been determined.


2006 OIG Verification: Recommendation open. We verified that the training
manager’s contract was not amended to include a statement of the amount of funds she
will be advanced for the training center.

2009 OIG Verification: Recommendation closed. We reviewed the contract file of the
training manager maintained by the administrative officer and verified that it included in
the statement of work the maximum amount of funds to be advanced for official
expenditures at the training center.


SPECIAL FUNDING

26. That the post obtain a completed and signed copy of Appendix M from the SPA
    Handbook from Volunteers who receive SPA funding and provide fund
    management advice as necessary.

Management’s Response: Concur. Post copy of the SPA Handbook from 2003 does
not include an Appendix M. Post believes that this recommendation refers to Appendix


Follow-up Audit Report: Peace Corps/Uganda                                                8
5: SPA Program Volunteer Consent and Liability Acceptance Form that will be signed
and completed whenever a SPA check is awarded to a Volunteer. However, Post is not
expected to receive SPA funding from USAID Kampala during FY 2006.


2006 OIG Verification: Recommendation open. We verified that there were no signed
Volunteer Consent and Liability Acceptance Forms in the files. Although the
administrative officer produced SPA grant files, they were for grants after the period of
audit. The administrative officer also checked with the SPA coordinator, who stated that
she had not received any of the required forms from Volunteers.

It should be noted that the post was currently working with USAID to obtain 2007 SPA
grant funding, and this issue may continue in the future.

2009 OIG Verification: Recommendation closed. Post procedure is for the Volunteer
to sign the SPA “Consent and Liability Acceptance” form when receiving SPA funds.
We selected two SPA projects and verified that Volunteers had signed the form.


PROPERTY: FURNITURE AND EQUIPMENT

31. That the post review the GSO’s responsibilities and segregate the functions of
    receiving and inventory.

Management’s Response: Concur. The Janitor is currently being trained to take over
the function of inventory custodian. Following the Property Inventory Report to be
completed by November 30, 2005, the Janitor’s performance will be evaluated and if
found acceptable, the SOW in his contract beginning January 7, 2006 will be modified to
include inventory custodian activities. The GSO’s contract SOW will also be revised at
the same time to exclude elements related to inventorying taken over by the Janitor.


2006 OIG Verification: Recommendation open. We verified that segregation of the
general services officer’s duties had not been achieved. The general services officer
(GSO) continued to receive the inventory and perform the physical inventory.
Furthermore, the GSO’s Statement of Work had not been amended to delete the
requirement of maintaining the inventory records.

2009 OIG Verification: Recommendation closed. We discussed the segregation of
inventory responsibilities with the administrative officer and the general services officer
and noted that the general services officer handled property receipt/data entry and the
janitor and a driver together performed the physical inventory in October – November,
2008.




Follow-up Audit Report: Peace Corps/Uganda                                                    9
32. That the post issue custody receipts for all property.

Management’s Response: Concur. Post will provide a listing of all residential property
assigned to each staff member. Following review of listing, employees will confirm
receipt of property, which will be kept on file by GSO. Effective November 30, 2005.


2006 OIG Verification: Recommendation open. We verified that the GSO had
recorded inventory records assigned for each staff member and for each residence;
however, the inventory records were not signed by the person with custodial responsible
for the property.

2009 OIG Verification: Recommendation closed. We obtained the custody receipt
records from the general services officer and verified that they were signed by the
respective staff members.



33. That the post conduct a complete physical inventory.

Management’s Response: Concur. As mentioned in Recommendation # 31, Post will
conduct inventory during November 2005 and complete a Property Inventory Report by
November 30, 2005.


2006 OIG Verification: Recommendation open. We verified that inventory records
that were updated after our original audit had not been maintained current. We identified
property on the records that had been transferred to PC/Kenya and property purchased
during the year that was not included in the inventory records.

2009 OIG Verification: Recommendation closed. We verified that the post conducted
a complete physical inventory by reviewing the inventory records maintained by the
administrative officer. It was conducted by the janitor and a driver. The records included
a transmittal letter to headquarters dated November 21, 2008 accompanying the inventory
listing.



35. That the post dispose of excess, obsolete, and worn out property following the PCM
    guidance.

Management’s Response: Concur. Following examination, Post transfers excess,
obsolete, and worn out property to the Embassy GSO on an annual basis, usually during
the Embassy’s auction each December. Post will examine all excess property to
determine each piece’s status during the November inventory. To be completed by
November 30, 2005.



Follow-up Audit Report: Peace Corps/Uganda                                             10
2006 OIG Verification: Recommendation open. We verified that the post continued to
maintain excess, obsolete, and worn out property. According to the administrative
officer, the post had prepared property for auction, but the embassy had postponed the
auction twice.

Our observation of the contents of the storage units suggested that much of the property
was not prepared to be put up for auction.

2009 OIG Verification: Recommendation closed. We discussed the status of excess,
obsolete, or worn out property with the general services officer. He informed us that the
post had accumulated and disposed of such property as part of an auction held by the U.S.
embassy in May 2008. We obtained and reviewed the listing of the disposed property in
the administrative files. We inspected the post’s premises and found that the post had
segregated an old and unused washing machine for possible disposal during the next
auction by the embassy.


VEHICLE MANAGEMENT

38. That the driver/mechanic review and initial the vehicle logs on a weekly basis.

Management’s Response: Concur. The driver/mechanic will review and initial the
vehicle logs on a weekly basis, beginning August 31, 2005.


2006 OIG Verification: Recommendation open. We verified that the driver/mechanic
did not consistently initial the vehicle logs. We observed that the logs rarely had a
signature to indicate they had been reviewed.

2009 OIG Verification: Recommendation open. PCM section 527.5.4 requires that the
administrative officer and the staff members responsible for initiating vehicle repairs or
controlling the maintenance records, and for billing authorized, non-official use, review,
initial, and date the vehicle usage logs weekly. We obtained the vehicle usage logs and
verified that the individual responsible for initiating vehicle repairs and keeping the
vehicle maintenance records, the general services officer, was initialing and dating the
vehicle usage logs weekly. We also noted that the driver/mechanic was, for the most part,
initialing and dating the logs on a weekly basis.

However, we found that the administrative officer and the staff member responsible for
billing for personal use of post vehicles were not reviewing, initialing, and dating the logs
as required. The administrative officer stated that the post would begin the necessary
additional reviews immediately.

This recommendation will remain open pending submission to the chief compliance
officer of several examples of vehicle usage logs with initialing and dating by the
required staff members signifying their weekly reviews.


Follow-up Audit Report: Peace Corps/Uganda                                                11
39. That the post include the signature and title of staff that authorize use of the
    vehicles.

Management’s Response: Concur. The GSO will review and initial the vehicle logs on
a weekly basis, following review and initial by driver/mechanic, beginning August 31,
2005. The driver/mechanic will review and initial the vehicle logs on a weekly basis,
beginning August 31, 2005.


2006 OIG Verification: Recommendation open. We verified that the post had added
the GSO as the approving official for vehicle usage. However, we observed that the logs
were not consistently signed to show approval each time the vehicle is used.

2009 OIG Verification: Recommendation closed. We verified by review of the vehicle
usage logs that the general services officer signed and dated the logs on a weekly basis
with the notation “vehicle use authorized.”


CONTRACTS IN GENERAL

44. That the post obtain contractor signatures on the contractor release form at the end
    of each contract period.

Management’s Response: Concur. Post will obtain contractor signatures on each
contractor release form following completion of contract, beginning August 30, 2005.


2006 OIG Verification: Recommendation open. We randomly selected four PSC files
to determine if they contained contractor release signatures at the end of their contract
period. We identified one incomplete release form in our sample.

The post should review PSC files to ensure all contractor release forms are complete.

2009 OIG Verification: Recommendation closed. We selected a sample of five PSCs.
We found contractor release forms with signatures for four of the PSCs. One contractor
release form was not able to be located. The financial assistant told us that she had seen
the form and showed us a control sheet with the PSC’s name, and we confirmed with the
PSC that she had signed the form. We expanded the test to include an additional three
PSCs and found contractor release forms for all three. There has been substantial
compliance by the post, and we are closing this recommendation.




Follow-up Audit Report: Peace Corps/Uganda                                              12
PERSONNEL

52. That the post archive records or dispose of records using OFMH guidance.

Management’s Response: Concur. Post will review OFMH guidance and will archive
or dispose of employee time and attendance records according to stated
recommendations. To be completed by October 30, 2005.


2006 OIG Verification: Recommendation open. We verified that the post did not
archive or dispose of records using OFMH guidance. For example, the administrative
officer continued to maintain files related to the 2001 budget, the timekeeper maintained
time records that dated back to 2001, and other miscellaneous outdated files were stored
in storage containers.

2009 OIG Verification: Recommendation closed. The post made a concerted effort in
2008, in conjunction with its move to new premises, to archive or dispose of records in
accordance with agency policy. We obtained a memo dated February 15, 2008 from the
administrative officer to all staff detailing agency guidelines and the process for review
of the post’s files by staff. We selected a sampling of files and verified that they did not
contain records which should have been disposed of or archived.




Follow-up Audit Report: Peace Corps/Uganda                                                13
            OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in a follow-up audit is to verify the status of our previous audit
recommendations. Our conclusions are based on information from three sources: (1)
document and data analysis, (2) interviews, and (3) direct observation. Our audit follow-
up was conducted in accordance with the governmental auditing standards prescribed by
the Comptroller General of the United States. Our scope was limited to verification of
the status of previous audit recommendations in the “Final Report on the Audit of Peace
Corps/Uganda” (Report No. IG-05-22-A) issued in September 2005 which remained
open in the “Report on the Follow-up Audit of Peace Corps/Uganda (IG-07-03-FUA)
issued in December 2006. At the end of our 2009 follow-up audit, we briefed the country
director and administrative officer. At headquarters, we conducted a general briefing for
regional staff.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, current Peace Corps initiatives and policies,
and other federal regulations.




Follow-up Audit Report: Peace Corps/Uganda                                            14
            AUDIT COMPLETION AND OIG CONTACT


AUDIT COMPLETION            Senior auditor Steven Kaffen performed the follow-up
                            audit.


OIG CONTACT                 If you wish to comment on the quality or usefulness of this
                            report to help us strengthen our product, please e-mail
                            Gerald P. Montoya, Assistant Inspector General for Audit,
                            at gmontoya@peacecorps.gov, or call him at
                            (202) 692-2907.




Follow-up Audit Report: Peace Corps/Uganda                                           15
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
